cf-'/,
■W>

Xs w

-No.

IN THE
SUPREME COURT OF THE UNITED STATES

RONNIE SPELLS

I

TITIONER

(Your Name)

■j r

iVch t!

vs.

UNITED STATES OF AMERICA

— RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO

ZD

FILED
APR 0 1 2021
SUPRemeFcourtLu rK

THE UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

RONNIE SPELLS
(Your Name)
P.O. BOX 6000
(Address)

FLORENCE, COLORADO 81226
(City, State, Zip Code)
N/A
(Phone Number)

QUESTION(S) PRESENTED
Whether District Court Judge Castel and the Second Circuit Appeals Cqurt perpetuated
continued systemic racism by contending that Congress left out the factors that a court
should consider in exercising its discretion to reduce a black defendant s sentence un­
der Section 404 of the First Step Act when Congress purpose of the statue obviously did
not intend to set forth any additional or so-called factors the Second Circuit believed
was left out and therefore, the district court was correct to assemble its own factors
that minimized the unwarranted disparity in mandatory minimum triggering quantities for
crack cocaine offenders?

LIST OF PARTIES

[i/f^All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

1.

United States v. Terry, U.S. Court of Appeals for the Eleventh Circuit.
No. 20-10482. 2020 U.S. App. LEXIS 30250, September 22. 2020

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

United States v. Johnson, 961 F.3d 181 (2d Cir. 2020)

6

United States v. Terry, 2020 U.S. App. LEXIS 30250 (llth Cir.)

6

Terry v. United States, U.S. Supreme Court No. 20-5904 (2020)

6, 7

Dorsey v. United States, 567 U.S. 260, 273 (2012)

6

STATUTES AND RULES
18 U.S.C. §3582(c)(2)

6

18 U.S.C. §3553(a) . .

7

21 U.S.C. §84l(b)(l)(B)

6

Pub. L. No. 115-391 . .

6

Pub. L. No. 111-220

6

OTHER

TABLE OF CONTENTS

. 1

OPINIONS BELOW
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

10

INDEX TO APPENDICES
APPENDIX A

The Opinion of the United States Court of Appeals for the
Second Circuit (November 6, 2020)

APPENDIX B

The Opinion of the United states District Court for the
Southern District of New York (September 27, 2019)

APPENDIX C

Order of the United States Court of Appeals for the Eleventh
Circuit denying the Appeal of Appellant Tarahrick Terry in
2020 U.S. App. LEXIS 30250 (No. 20-10482) (Sept. 22, 2020)
Relevant Statutory Provisions
§404 of the First Step Act, Pub. L. No. 115-391,

APPENDIX D

132 Stat. 5194
APPENDIX E

APPENDIX F

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[i/f^For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix_^
the petition and is
[vKreported at 833 Fed. Appx. 890 (Nov. 6, 2020)
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix B
the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

[/For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was November 6, 2020.______
[ Kf^No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including November 6, 2020
(date) on April 5, 2021
(date)
in Application No. __ A_______
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
18 U.S.C. §3582(c)(2)
21 U.S.C*.- §841(a)(1)
21 U.S.C. §841(b)(l)(B)(iii)

Fair Sentencing Act of 2010, Pub. L. No. 111-220, 124 Stat. 2372
First Step Act of 2018, Pub. L. No. 115-391

132 Stat. 5194 (Section 404)

18 U.S.C. §3553(a)
U.S. Constitution Amendment V.
"No person shall be deprived of life, limb or
liberty without the due process of law."

3

STATEMENT OF THE CASE
The Petitioner, a black man, who was 27 years old when he was sentenced to approxi­
mately 21 years in federal prison, which was subsequently reduced in 2008, to approxi­
mately 18 years, for possessing, inter alia, "crack cocaine" and guns. His Crack con­
viction had a mandatory minimum sentence. On August 3, 2010, President Obama signed
into law the Fair Sentencing Act of 2010, Pub. L. No. 111-220, 124 Stat. 2372. In 2018,
Congress passed the First Step Act, allowing African American Defendants who wereconvicted and sentenced for "crack offenses" before 2010 to apply for a sentence reduction.
Pursuant to this new law, this petitioner's crack conviction no longer carried any man­
datory minimum sentence. Therefore, this petitioner applied for a modest 29-month reduc­
tion in his federal crack cocaine sentence. The district court denied it, despite the
petitioner being exactly the type of person, with the exact type of crime, committed in
an specific/relevant time period that Congress intended to benefit from the change in
the crack cocaine law. Like many black youths, the petitioner had a troubled and negli­
gent upbringing. He was born to a teenage mother, who was only 14 years old at his birth
and both his parents abused drugs and alochol. At 9 years old, the petitioner's father
went to prison who was still serving his prison sentence when the petitioner was senten­
ced for crack cocaine. When the petitioner was just 12 years old his mother was convicted
of selling drugs and sent to prison. With both parents incarcerated while the petitioner
was a teenager, he was introduced to drug dealing by older men on the streets in his
neighborhood. The petitioner had a poor school attendance record because he was also
ashamed of the fact that he had a learning disability and other kids bullied him for
being in special education classes. At the time of sentencing in this case, the petiti­
oner's IQ score placed him woefully in deficient ranges. The petitioner is now age 41.
On September 27, 2019, the district court held that the petitioner was absolutely
eligible for a sentence reduction under the changes in the crack cocaine law, specifi­
cally the First Step Act, but however, the district court had discretion to decline to
do so. P. Kevin Castel was the district court judge who declined to exercise his "dis­
cretion to reduce this petitioner's sentence." Judge Castel noted that "The First Step
Act does not set forth the factors that a court should consider in exercising its dis­
cretion to reduce a sentence." However, Judge Castel claimed he would take into account
"the purpose of the statue, to reduce unwarranted disparity in mandatory minimum tri­
ggering quantities for crack cocaine and the facts as they existed at the time of the
First Step Act Motion," including "post sentencing evidence of disciplinary history and

4

STATEMENT OF THE CASE CONTINUED
steps towards rehabilitation." The petitioner is a black man incarcerated in America's
Federal Prison System over 15 years for a crack cocaine conviction at time when racial
disparities in crack cocaine sentencing was undisputedly pervasive for black defendants.
The petitioner appelaed Judge Castel's denial of Section 404 relief to the Second Cir­
cuit Court of Appeals on whether the district court should have granted this petitioner
request for a modest 29-month reduction in his crack cocaine sentence pursuant to Sec­
tion 404 of the:-First Step Act?

5

REASONS FOR GRANTING THE PETITION

Certiorari should be granted in this case because the district court and the Court
of Appeals looked beyond this petitioner's statue of conviction in order to supercede
Congress' purpose of Section 404 under the First Step Act of 2018, Pub. L. No.115-391,
for 18 U.S.C. §3582(c)(2) applications for sentence reductions. Certiorari should be
granted in this case because Section 404 of the First Step Act of 2018 was enacted by
Congress to extend the availability of sentence reductions authorized by Section 2 of
the Fair Sentencing Act, Pub. L. No. 111-220 to certain defendants but namely dispro­
portionately sentenced black defendants like the petitioner Ronnie Spells. Congress
made it crystal clear that in order to obtain the benefit of Section 404(b), a defen­
dant MUST have been imprisoned with respect to a "covered offense." Section 404(a). A
covered offense is one based upon a violation of a federal criminal statue committed
before August 3, 2010, the statutory penaly for which was modified by Section 2 of the
Fair Sentencing Act.
The petitioner Ronnie Spells should have been the beneficiary of a sentence reduction
based on the purpose and intent of the language of Congress when modifying the statutory
penalties for crack cocaine offenses, like the one for which the petitioner Spells was
sentenced, that was subject to 21 U.S.C. §84l(b)(l)(B)'s mandatory sentencing range. See
124 Stat. and United States v. Johnson, 961 F.3d 181 (2d Cir. 2020). At first, the Fair
Sentencing Act's reforms did not apply retroactively to defendants like petitioner
Spells who had been sentenced prior to its passage. Dorsey v. United States, 567 U.S.
260, 273,

132 S. Ct. 2321,

183 L.Ed 2d 250 (2012). With the signing of the First Step

Act into law by President Trump on december 21, 2018, which made certain provisions re­
troactive. In particular, Section 404 of the First Step Act provides that, if a defen­
dant was originally sentenced for a "covered offense" as defined by the Act, a district
court may . . . impose a reduced sentence as if sections 2 and 3 of the Fair Sentencing

6

Act of 2010 . . . were in effect at the time the covered offense was committed." First
Step Act. §404(b), 132 Stat. at 5222.
What's strikingly odd in Section 404 that affected the outcome in this case as well
as Terry v. United States, U.S. Supreme Court No. 20-5904 (currently before this court)
provides that "nothing in Section 404 shall be construed to require a court to reduce
any sentence pursuant to Section 404." Id. §404(c), 132. Stat. at 5222. The district
Court in this petitioner's case concluded that he was eligible for Section 404 relief,
but exercised its discretion to deny the motion. See Appendix B. The District court
attempted to reason that it was "obligated to consider the faxts as they existed at
the time its decision on the Section 404 motion, rather than as they existed at the
time of original sentencing, and therefore considered this petitioner's post-sentencing
conduct." Id.
According to the District court and the Second Circuit Court of Appeals, Section
404 relief is "discretionary" under Section 404(c) of the First Step Act and retains
the discretion to decide what factors are relevant as it determines whether and to
what extent to reduce a sentence.
The reason that the court should grant Certiorari in this case is to see into a
case like that of this petitioner and Petitioner Terry, whereas it is abunduntly clear
that the lower courts are fashioning a criteria out of Section 404(c) language in or­
der to obviously "create what factors" it believes Congress omitted and to perpetuate
systemic racism from the bottle-neck legislation created in the First Step Act that
set forth factors that a court should consider in exercising its discretion, based on
"the purpose of the statue and the resons why the sentence was imposed in the first
place and the sentencing factors set forth at.18 U.S.C. §3553(a). Instead, the very
same type and class of defendants whose.';Gongress intention was to give a chance to
thousands of people who are still serving sentences for offenses involving crack co­
caine under the old 100-to-l ruling to petition individually ... to the court for a

7

reduction in the sentencing." Congress has decided what eligibility was based and
now that process has been greatly questioned by the judicial branch that is alleging
Congress left out language which set forth factors surrounding courts discretion or
otherwise would have been "irrational" for Congress to have omitted such factors. It
is contrary to Congress' intent for the court to idealize a criteria that is non-exis­
tent because it olny re-victimizes those defendants who were subject to racially dis­
proportionate sentences in the first place, to a non-existent eligibility requirement
that is not contained in any provision of the First Step Act. For these reasons the
court should grant certiorari.
Congress designed Section 404 of the First Step Act to be wise, sound,, and reasonable
legislation. But the district court and the Second Circuit feel as though a remedy to
the situation as shaped by Congress is irrational, unreasonable and illogical as long as
there is no language providing the courts with explicit factors beyond those provided in
the statue, such as reliance on "offense conduct" and "post sentence developments" not
mentioned in the First Step Step to govern eligibility for a sentence reduction. For in­
stance, District Court Judge Castel stated in his order of denial, "because consideration
of a reduction occurs long after the original sentence, a court should consider the facts
"as they exist at the time it exercises sentence reduction discretion" which he invisions
post sentencing evidence (e.g. disciplinary record and rehabilitation efforts) are fac­
tors and steps a district court should be allowed to consider. See Appendix B, at5-6.
Congress did not include any language suggested by Judge Castel and is what prompted
his opinion that something is irrational or unreasonable about the First Step Act passage
of Section 404, but eludes to the language in Section 404(c) that states, "nothing in
Section 404 shall be construed to require a court to reduce any sentence pursuant to
Section 404." Id.
Another reason why the court should grant certiorari review is because we cannot:
have an American Sentencing System in which an individual judge's purported disagree-

8

ment with the [guidelines] that in one courtroom we can have sentencing that looks like
Finland, while in a different courtroom we have sentencing that looks like Mississippi.
Section 404(b) of the First Step Act allows a court that "imposed a sentence for a
covered offense" to "impose a reduced sentence- as if sections 2 and 3 of the Fair Sen­
tencing Act of 2010 was in effect at the time the covered offense was committed." The
"purpose" of the Fair Sentencing Act was to restore fairness to federal cocaine sen­
tencing, to those defendants like Petitioner Spells, who had already been sentenced
harshly before the passage of the Act.

To be more precise, the Act defines a "covered

offense" as "a violation of a Federal criminal statue, the statutory penalties for which
were modified by section 2 or 3 of the Fair Sentencing Act of 2010, that was committed
before August 3, 2010."
Again, the petitioner Ronnie Spells is a black man who was sentenced for a crack
conviction at a time when racial disparities in crack cocaine sentencing were pervasive.
Since that sentencing, in 2018, Congress recognized that, defendant's like petitioner
Spells, convicted of crack offenses and had been subjected to unfairly high sentences
because of the old ratio between sentences for crack cocaine and powder cocaine, passed
the First Step Act, Section 404, to reduce his sentence and to decrease these dispari­
ties by restoring racial fairness in sentencing.
A final reason why the court should grant certiorari relief in this case is because
Congress passed the First Step Act, Section 404, which conveyed a message to the public
and already sentenced, disproportioned african american defendants like petitioner who
have been crushed by the previous penalty structure for crack cocaine offenses. It is
individual Judges who disagree with the intent and purpose behind Section 404 and refuse
to take into account those reasons for sentence reduction, despite the fact that those
reasons are to correct racially disparate sentences from the past, Judge Castel and the
Second Circuit seems to visualize judicial dominance by causing these defendants to re­
subjected to systemic racism that is clearly contrary to Congress' intent.

9

